No. 19-109

 

 

IN THE

Supreme Court of the Anited States

GIOVANNI MONTIJO DOMINGUEZ,
Petitioner,

v.

UNITED STATES OF AMERICA,
Respondent.

 

On Petition For A Writ Of Certiorari
To The United States Court of Appeals
For The Tenth Circuit

BRIEF OF FAMM AND THE SENTENCING
PROJECT AS AMICI CURIAE IN SUPPORT OF
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,946 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on August 26, 2019.

 

Wilson-Epes Printing Co., Inc.
